No. 21-144

 

 

In THE
Supreme Court of the United States

SEATTLE’S UNION GOSPEL MISSION, Petitioner,
Vv.

MarTTHEw S. Woops, Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF WASHINGTON

BRIEF FOR THE GENERAL CONFERENCE OF
SEVENTH-DAY ADVENTISTS, WORLD VISION,
INC. (U.S.), AGUDATH ISRAEL OF AMERICA,
ASSOCIATION OF CHRISTIAN SCHOOLS
INTERNATIONAL, BELLEVUE CHRISTIAN
SCHOOL, CRISTA MINISTRIES, ETHICS AND
RELIGIOUS LIBERTY COMMISSION OF THE
SOUTHERN BAPTIST CONVENTION, INTERVARSITY
CHRISTIAN FELLOWSHIP/USA,
NORTHWEST DISTRICT COUNCIL OF THE
ASSEMBLIES OF GOD, NORTHWEST
UNIVERSITY, UNION OF ORTHODOX JEWISH
CONGREGATIONS OF AMERICA, AND
SEATTLE CHRISTIAN SCHOOL AS AMICI
CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,231 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 2, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
